CERTIFICATE OF COMPLIANCEE
SANDRA DEMUTH,
Plaintiff-Appellant,
-vUNITED STATES SMALL BUSINESS
ADMINISTRATION, CHRISTOPHER
PILKERTON, in his official capacity as
Acting Administrator of Small Business
Administration,
Defendants-Appellees,
MARIA CONTRERAS-SWEET, Administrator,
Defendant.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 7,056 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 21, 2021

